Annual Percentage Rate(APR) for
Purchases

INTEREST RATE AND INTEREST CHARGES

12.24%

after the introductory period.
This APR will vary with the market based on the Prime Rate.

0.00%

Introductory rate for (6) statement cycles after account opening.
APR for Balance Transfers
APR for Cash Advances

12.24%

This APR will vary with the market based on the Prime Rate.

24.99%

This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you
interest on purchases if you pay your entire balance by the due date each month. We will begin
charqinq interest on cash advances and balance transfers on the transaction date.
Minimum Interest Charge
If you are charged periodic interest, the charge will be no less than $1.50.
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website
Financial Protection Bureau
of the Consumer Financial Protection Bureau at

Paying Interest

httos://www.consumerfinance.aov/learnmore

Annual Fees
Transaction Fees
• Balance Transfer
• Cash Advance
• International Transaction

Penalty Fees

• Late Payment
• Over-the-Credit-Line
• Returned Payment

$99

FEES

Either $10 or 4% of the amount of each transfer, whichever is greater.
Either $10 or 4% of the amount of each transfer, whichever is greater.
NONE

Up to $35

NONE
Up to $35

How We Will Calculate Your Balance: We use a method called "average daily balance". See your Card Regulations for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Regulations.
Loss of Introductory APR: We may end your introductory APR and apply the Annual Percentage Rate for purchases if you make a late

payment.

How We Will Calculate Your Variable APRs: The APR will be determined separately for each monthly statement and any increase or decrease
will take effect on the first day of the billing cycle in which the change occurs. The APR in effect for each billing cycle will be equal to the Prime
Rate plus 8.99 percentage points. "Prime Rate" means the highest Prime Rate published in the "Money Rates" table in the Wall Street Journal on
the 15th calendar day of each month, or if no rate is published on the 15th, then on the next succeeding calendar date on which a Prime Rate is
published. An increase in Prime Rate will increase the APR and the Monthly Periodic Rate applied to your account. The annual percentage rate
and monthly periodic rate will not change more often than once per month. You can call 1-800-445-9272 for the current actual rate. Any increase
or decrease in the annual percentage rate and the monthly periodic rate will cause the interest charge on your account to increase or decrease
accordingly, and may cause your minimum payment due to increase or decrease.
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of February 15, 2021.
A: The initial monthly periodic rate applied to your account under the agreement will be 0.00% for six statement cycles after account opening.
Upon completion of the sixth statement cycle the Monthly Periodic Rate applied to your account under this agreement is estimated to be 1.02%.
We add 8.99% to the Prime Rate to determine the Purchase/Balance Transfer APR (monthly periodic rate currently 1.02%).
B: We add 21.74% to the Prime Rate to determine the Cash Advance APR (monthly periodic rate currently 2.083%).
Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account).

Annual Percentage Rate(APR) for
Purchases

INTEREST RATE AND INTEREST CHARGES

15.49%

after the introductory period.
This APR will vary with the market based on the Prime Rate.

0.00%
APR for Balance Transfers
APR for Cash Advances

Introductory rate for (6) statement cycles after account opening.

15.49%

This APR will vary with the market based on the Prime Rate.

24.99%

This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you
Paying Interest
interest on purchases if you pay your entire balance by the due date each month. We will begin
charqinq interest on cash advances and balance transfers on the transaction date.
Minimum Interest Charge
If you are charged periodic interest, the charge will be no less than $1.50.
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website
Financial Protection Bureau
of the Consumer Financial Protection Bureau at
https://www.consumerfinance.gov/learnmore

Annual Fees
Transaction Fees

•
•
•

Balance Transfer
Cash Advance
International Transaction

Penalty Fees

•

•
•

Late Payment
Over-the-Credit-Line
Returned Payment

$99

FEES

Either $10 or 4% of the amount of each transfer, whichever is greater.
Either $10 or 4% of the amount of each transfer, whichever is greater.
NONE

Up to$35

NONE
Up to$35

How We Will Calculate Your Balance: We use a method called "average daily balance". See your Card Regulations for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Regulations.
Loss of Introductory APR: We may end your introductory APR and apply the Annual Percentage Rate for purchases if you make a late

payment.

How We Will Calculate Your Variable APRs: The APR will be determined separately for each monthly statement and any increase or decrease
will take effect on the first day of the billing cycle in which the change occurs. The APR in effect for each billing cycle will be equal to the Prime
Rate plus 12.24 percentage points. "Prime Rate" means the highest Prime Rate published in the "Money Rates" table in the Wall Street Journal
on the 15th calendar day of each month, or if no rate is published on the 15th, then on the next succeeding calendar date on which a Prime Rate
is published. An increase in Prime Rate will increase the APR and the Monthly Periodic Rate applied to your account. The annual percentage
rate and monthly periodic rate will not change more often than once per month. You can call 1-800-445-9272 for the current actual rate. Any
increase or decrease in the annual percentage rate and the monthly periodic rate will cause the interest charge on your account to increase or
decrease accordingly, and may cause your minimum payment due to increase or decrease.
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of February 15, 2021.
A: The initial monthly periodic rate applied to your account under the agreement will be 0.00% for six statement cycles after account opening.
Upon completion of the sixth statement cycle the Monthly Periodic Rate applied to your account under this agreement is estimated to be 1.291%.
We add 12.24% to the Prime Rate to determine the Purchase/Balance Transfer APR (monthly periodic rate currently 1.291%).
B: We add 21.74% to the Prime Rate to determine the Cash Advance APR (monthly periodic rate currently 2.083%).
Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account).

Annual Percentage Rate(APR) for
Purchases

INTEREST RATE AND INTEREST CHARGES

18.74%

after the introductory period.
This APR will vary with the market based on the Prime Rate.

0.00%

APR for Balance Transfers
APR for Cash Advances

Introductory rate for (6) statement cycles after account openinq.

18.74%

This APR will vary with the market based on the Prime Rate.

24.99%

This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle. We will not charge you
Paying Interest
interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.
Minimum Interest Charge
If you are charged periodic interest, the charge will be no less than $1.50.
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website
Financial Protection Bureau
of the Consumer Financial Protection Bureau at
https://www.consumerfinance.gov/learnmore

Annual Fees
Transaction Fees

$99

FEES

• Balance Transfer
• Cash Advance
• International Transaction

Either $10 or 4% of the amount of each transfer, whichever is greater.
Either $10 or 4% of the amount of each transfer, whichever is greater.

• Late Payment
• Over-the-Credit-Line

Up to$35

Penalty Fees

• Returned Payment

NONE

NONE

Up to$35

How We Will Calculate Your Balance: We use a method called "average daily balance". See your Card Regulations for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Regulations.
Loss of Introductory APR: We may end your introductory APR and apply the Annual Percentage Rate for purchases if you make a late

payment.

How We Will Calculate Your Variable APRs: The APR will be determined separately for each monthly statement and any increase or decrease
will take effect on the first day of the billing cycle in which the change occurs. The APR in effect for each billing cycle will be equal to the Prime
Rate plus 15.49 percentage points. "Prime Rate" means the highest Prime Rate published in the "Money Rates" table in the Wall Street Journal
on the 15th calendar day of each month, or if no rate is published on the 15th, then on the next succeeding calendar date on which a Prime Rate
is published. An increase in Prime Rate will increase the APR and the Monthly Periodic Rate applied to your account. The annual percentage
rate and monthly periodic rate will not change more often than once per month. You can call 1-800-445-9272 for the current actual rate. Any
increase or decrease in the annual percentage rate and the monthly periodic rate will cause the interest charge on your account to increase or
decrease accordingly, and may cause your minimum payment due to increase or decrease.
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of February 15, 2021.
A: The initial monthly periodic rate applied to your account under the agreement will be 0.00% for six statement cycles after account opening.
Upon completion of the sixth statement cycle the Monthly Periodic Rate applied to your account under this agreement is estimated to be 1.562%.
We add 15.49% to the Prime Rate to determine the Purchase/Balance Transfer APR (monthly periodic rate currently 1.562%).
B: We add 21.74% to the Prime Rate to determine the Cash Advance APR (monthly periodic rate currently 2.083%).
Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application
fee charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than
certain participation fees for a credit card account).

Annual Percentage Rate(APR) for
Purchases

INTEREST RATE AND INTEREST CHARGES

21.99%

after the introductory period.
This APR will vary with the market based on the Prime Rate.

0.00%

APR for Balance Transfers
APR for Cash Advances

Introductory rate for (6) statement cycles after account opening.

21.99%

This APR will vary with the market based on the Prime Rate.

24.99%

This APR will varv with the market based on the Prime Rate.
Paying Interest
Y our due date is at least 25 days after the close of each billing cycle. We will not charge you
interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.
Minimum Interest Charge
If you are charged periodic interest, the charge will be no less than $1.50.
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website
Financial Protection Bureau
of the Consumer Financial Protection Bureau at
https://www.consumerfinance.gov/learnmore

Annual Fees
Transaction Fees
• Balance Transfer
• Cash Advance
• International Transaction
Penalty Fees

• Late Payment
• Over-the-Credit-Line
• Returned Payment

$99

FEES

Either $10 or 4% of the amount of each transfer, whichever is greater.
Either $10 or 4% of the amount of each transfer, whichever is greater.
NONE

Up to $35
NONE
Up to $35

How We Will Calculate Your Balance: We use a method called "average daily balance". See your Card Regulations for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Card Regulations.
Loss of Introductory APR: We may end your introductory APR and apply the Annual Percentage Rate for purchases if you make a late payment.
How We Will Calculate Your Variable APRs: The APR will be determined separately for each monthly statement and any increase or decrease

will take effect on the first day of the billing cycle in which the change occurs. The APR in effect for each billing cycle will be equal to the Prime
Rate plus 18.74 percentage points. "Prime Rate" means the highest Prime Rate published in the "Money Rates" table in the Wall Street Journal
on the 15th calendar day of each month, or if no rate is published on the 15th, then on the next succeeding calendar date on which a Prime Rate
is published. An increase in Prime Rate will increase the APR and the Monthly Periodic Rate applied to your account. The annual percentage rate
and monthly periodic rate will not change more often than once per month. You can call 1-800-445-9272 for the current actual rate. Any increase
or decrease in the annual percentage rate and the monthly periodic rate will cause the interest charge on your account to increase or decrease
accordingly, and may cause your minimum payment due to increase or decrease.
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of February 15, 2021.
A: The initial monthly periodic rate applied to your account under the agreement will be 0.00% for six statement cycles after account opening.
Upon completion of the sixth statement cycle the Monthly Periodic Rate applied to your account under this agreement is estimated to be 1.833%.
We add 18.74% to the Prime Rate to determine the Purchase/Balance Transfer APR (monthly periodic rate currently 1.833%).
B: We add 21.74% to the Prime Rate to determine the Cash Advance APR (monthly periodic rate currently 2.083%).
Military Lending APR: Effective October 1, 2017, Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account:
The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account).

BankCard Services - Card Regulations
OTHER FEES
1.In the event a Cardholder shall request a replacement card for a lost or stolen card, a fee of
$15.00 may be charged for each replacement card. This fee will not apply to cards issued as
renewal of expired cards.
2. You will be charged $5.00 for each original or copied sales slip and duplicate statement you
request. We will not charge you for duplicate documents in connection with a billing error notice
or if our investigation indicates a billing error occurred.
3. You will be charged $25.00 for each request for expedited (rush) delivery of a credit card. Such
fee will cover both the creation of the credit card and delivery expense that is incurred.
4. You will be charged $15.00 for each expedited payment request. Expedited payment requests
can be made by telephone via live customer service agent from your checking or savings
account. Any incoming request will be recorded. Expedited telephone payment requests can be
made 24x7.
5. Annual Fees: The Annual Fee of $99 will be assessed on the ﬁrst cycle date after account
opening and then annually on the month in which the account was opened.
CARDHOLDER AGREEMENT
The MASTERCARD card (hereinafter called Card) enclosed herein is issued by THE CENTRAL
TRUST BANK, Jefferson City, Missouri who is the Creditor (hereinafter called Bank) of the
person(s) named on the enclosed card(s) (hereinafter called Cardholder) and by the Cardholder
signing or using the enclosed card(s), or by using the account number stated on the enclosed
form, agrees with Bank to all of the following terms and conditions and any future amendments:
1.This Card shall remain the property of Bank and shall be surrendered upon Bank’s request.
2. Cardholder assumes responsibility for all credit extended through the use of this Card.
Cardholders issued the same account number, jointly and severally assume responsibility to
repay all amounts incurred through the use of the account number and applicable interest
charges, and for credit insurance premiums, if authorized by Cardholder.
3. Cardholder agrees not to incur charges which will result in credit in excess of the credit limit
speciﬁcally authorized by Bank. Charges in excess of the credit limit agreed to by Bank are not
permitted and are in breach of the agreement and will be considered fraud. Notwithstanding any
language or ﬁgures to the contrary, the Bank shall have the absolute right to require immediate
payment of the entire outstanding balance in excess of the credit limit.
4. The use of this account for payment of any illegal purchase is strictly prohibited (ie internet
gambling, betting or lottery tickets).
5. Cardholder agrees to pay, at such place as Bank designates and in accordance with billings
and the current customer payment schedule, amounts incurred through the use of this Card and
all applicable interest charges as determined by the applicable method of determination in effect
at the time of their assessment.
6. In case this Card is lost or stolen, Cardholder agrees to promptly notify Bank by telephone
and to immediately conﬁrm such notice in writing. The Cardholder shall have no liability for
unauthorized use of the Card.
7. This Card, and the privileges thereunder, may be canceled at any time without notice.
8. In addition to Bank’s agreement to extend credit to Cardholder for charges, credit checks and
cash advances up to Cardholder’s credit limit, as set forth above, Bank further agrees to extend
credit to Cardholder for advance amounts and to pay for credit insurance premiums, if authorized
by Cardholder and offered by Bank up to Cardholder’s credit limit.
9. Bank shall have no responsibility for any merchandise purchased or services rendered to
Cardholder through the use of Cardholder’s Card(s), except as shall be required by law, and any
Cardholder agrees to ﬁrst assert any claims or defenses regarding any merchandise or services
so purchased against the seller. Bank shall not be responsible by reason of anyone’s refusal to
honor Cardholder’s Card(s).
10. This Card is not transferable.
11. The absence of Cardholder’s signature will not relieve Cardholder from liability for charges
incurred through the use of this Card.
12. Use of Card after notice of its revocation is fraudulent and subjects the user to legal
proceedings.
13. Bank will not make cash refunds on charges incurred with this Card.
14. (a) No interest charge will be imposed on any purchases (excluding cash advances) made
during the billing cycle covered by a monthly billing statement if the new balance is paid in full by
the payment due date shown on such statement and if the new balance on the monthly billing
statement immediately preceding such statement was paid in full by its payment due date. If the
new balance on the monthly billing statement immediately preceding the current monthly billing
statement was not paid in full by its payment due date, or if the new balance on the current
monthly billing statement is not paid in full by the payment due date, an interest charge will be
imposed on Cardholder’s account. Interest charges will be applied on the next statement date
for any monthly billing statement that interest charges are imposed. Interest charges will be
calculated according to the “average daily balance” method (paragraph 14(b)). Interest charges
begin to accrue on cash advances and balance transfers as of the date of the advance. Interest
charges begin to accrue on credit checks and credit life insurance premiums on the day they are
posted to the account. Interest charges begin to accrue on purchases as of the transaction date.
14.(b) If an interest charge is imposed on Cardholder’s account, Bank will compute the interest
charge on Cardholder’s account by applying the monthly “periodic rate” to the “average daily
balance” of Cardholder’s account (excluding current transactions). To get the “average daily
balance,” Bank will take the beginning balance of the account each day and add any new
purchases (if subject to interest charges as explained above), cash advances (including credit
checks) and credit life insurance premiums and subtract any payments or credits and unpaid
interest charges. This gives Bank the daily balance. Then, Bank adds up all the daily balances
for the billing cycle and divides the total by the number of days in the billing cycle. This gives
Bank the “average daily balance.”

15. The rate of exchange between the transaction currency and the billable currency used for
the processing of International MASTERCARD transactions is the (I) wholesale market rate or
(II) government-mandated rate, in effect one day prior to the processing date, increased by 0
percent (or the applicable percentage as determined by the Issuer’s selected options).
16. Bank can change any of the terms of this Agreement (including the periodic rates used to
compute the interest charge) at any time. The new terms will apply both to new purchases and
advances. We will mail you written notice of any change at least 45 days before the start of the
billing cycle when the change will take place.
17. NOTICE REGARDING INACCURATE INFORMATION-As a participant in the consumer
reporting system, we furnish information about our experience with you to consumer reporting
agencies. These consumer reports allow us to make credit and other opportunities available to
you. If you believe that we have furnished information to a consumer reporting agency that is
inaccurate, please notify us at the following address and identify the speciﬁc information that
is inaccurate: The Central Trust Bank, 238 Madison, Jefferson City, Missouri 65101, Attention:
BankCard Services.
18. It shall be an “ Event of Default” under this Agreement if: (a) Cardholder fails to make any
payments of billings when due, including without limitation amounts incurred through the use
of the Card and applicable interest charges; (b) Cardholder incurs charges by use of the Card
in excess of the credit limit speciﬁcally authorized by Bank; (c) Cardholder dies or becomes
bankrupt or insolvent; (d) garnishment or attachment proceedings are instituted against
Cardholder; or (e)Cardholder fails to pay or perform any other obligations, agreements, or
conditions provided in this agreement.
19. Upon the occurrence of an “ Event of Default” , Bank may, at its option; (a) immediately
demand payment in full of all obligations of Cardholder arising out of or in any way related to the
Card; (b) set off any obligations of Cardholder against any right of Cardholder to the payment of
money from Bank; (c) exercise any and all remedies available to Bank at law, in equity, or under
this agreement. By choosing any one of the forgoing remedies, Bank does not waive its right to
subsequent use of another remedy. Bank does not waive an “ Event of Default” if Bank does not
choose to use any remedy, and, by electing not to use any remedy, Bank does not waive its right
to later declare an “ Event of Default” and to use any remedies available to Bank. Bank shall be
entitled to the reasonable costs of collection, including but not limited to reasonable attorney fees
for attorneys who are not Bank employees.
20. Any notice, demand or request by Bank to Cardholder, shall be in writing and shall be
deemed to have been duly given or made if mailed to address set forth in Cardholder’s credit
card application, or to such other address as Cardholder may hereafter designate to Bank.
MONITORING AND RECORDING TELEPHONE CALLS AND CONSENT TO RECEIVE
COMMUNICATIONS
We may monitor or record phone calls for security reasons, to maintain a record and to ensure
that you receive courteous and efﬁcient service. You consent in advance to any such recording.
We need not remind you of our recording before each phone conversation.
To provide you with the best possible service in our ongoing business relationship for your
account we may need to contact you about your account from time to time by telephone, text
messaging or email. However, we must ﬁrst obtain your consent to contact you about your
account because we must comply with the consumer protection provisions in the federal
Telephone Consumer Protection Act of 1991 (TCPA), CAN-SPAM Act and their related federal
regulations and orders issued by the Federal Communications Commission (FCC).
• Your consent is limited to this account, and as authorized by applicable law and regulations.
• Your consent does not authorize us to contact you for telemarketing purposes (unless you
otherwise agree elsewhere).
With the above understandings, you authorize us to contact you regarding this account
throughout its existence using any telephone numbers or email addresses that you have
previously provided to us or that you may subsequently provide to us.
This consent is regardless of whether the number we use to contact you is assigned to a
landline, a paging service, a cellular wireless service, a specialized mobile radio service, other
radio common carrier service or any other service for which you may be charged for the call.
You further authorize us to contact you through the use of voice, voice mail, and text messaging,
including the use of pre-recorded or artiﬁcial voice messages and an automated dialing device.
If necessary, you may change or remove any of the telephone numbers or email addresses at
any time using any reasonable means to notify us.
Bank Initiated Alerts
Alerts will be provided Free to End User (FTEU). Messaging Frequency Varies.
You can cancel this service at any time. Just text “STOP” to 47450. After you send the message
“STOP” to us, we will send you a reply message to conﬁrm that you have been unsubscribed.
After this, you will no longer receive messages from us.
If at any time you forget what keywords are supported, just text “HELP” to 47450. After you send
the message “HELP” to us, we will respond with instructions on how to use our service as well
as how to unsubscribe.
Participating Carriers: AT&T, Boost Mobile, MetroPCS, Sprint, T-Mobile®, Verizon Wireless,
Virgin Mobile USA.
Customer Initiated Alerts
When you opt-in to the service, we will send you a message to conﬁrm your signup. Message
and data rates may apply. Messaging Frequency Varies.
You can cancel this service at any time. Just text “STOP” to 87300 or 83318. After you send
the message “STOP” to us, we will send you a reply message to conﬁrm that you have been
unsubscribed. After this, you will no longer receive messages from us.
If at any time you forget what keywords are supported, just text “HELP” to 87300 or 83318. After
you send the message “HELP” to us, we will respond with instructions on how to use our service
as well as how to unsubscribe.
Participating Carriers: AT&T, Boost Mobile, MetroPCS, Sprint, T-Mobile®, Verizon Wireless,
Virgin Mobile USA.

Adding Your Mastercard To A Mobile Wallet
When you opt-in to this service we will send you a message to conﬁrm your signup. Message and
data rates may apply. Messaging Frequency Varies.
You can cancel this service at any time. Just text “STOP” to 87300. After you send the message
“STOP” to us, we will send you a reply message to conﬁrm that you have been unsubscribed. After
this, you will no longer receive messages from us.
If at any time you forget what keywords are supported, just text “HELP” to 87300. After you send
the message “HELP” to us, we will respond with instructions on how to use our service as well
as how to unsubscribe.
Participating carriers: AT&T, C-Spire (Cellular South), Carolina West Wireless, Cellcom,
ClearSky, Google Voice, Interop, nTelos, Sprint/Boost, T-Mobile/Metro PCS, U.S. Cellullar,
Verizon Wireless, and Virgin Mobile.
T-Mobile is not liable for delayed or undelivered messages.
As always, message and data rates may apply for any messages sent to you from us and to us
from you. If you have any questions about your text plan or data plan, it is best to contact your
wireless provider.
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to us at: The Central Trust Bank,
Attn: BankCard Services, PO Box 779, Jefferson City, MO 65102.
In your letter, give us the following information:
• Account information: Your name and account number
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement
• At least 3 business days before an automated payment is scheduled, if you want to stop payment
on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also
tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why
we believe the bill is correct.

After we ﬁnish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other
fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know when the matter has
been settled between us.
If we do not follow all of the rules above, you do not have to pay the ﬁrst $50 of the amount you
question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT CARD PURCHASES
If you are dissatisﬁed with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if
your purchase was based on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisﬁed with the purchase, contact us in writing at: The
Central Trust Bank, Attn: BankCard Services, PO Box 779, Jefferson City MO 65102.
While we investigate, the same rules apply to the disputed amount as discussed above. After we ﬁnish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.
Other Important Information
Lost and Stolen (24 hrs.): (866) 756-7863
Customer Service (24 hrs.): (877) 907-7480
Past Due Accounts: (800) 626-8010
View account activity or sign up for electronic statement: www.centralbank.net

